APPENDIX

TABLE OF APPENDIX

Substitute Opinion of the Supreme Court
of the State of Idaho, State of Idaho v. John
Allison Huckabay, No. 48109 (Feb. 5,
2021) ………………………………………………… 1a
Opinion of the Court of Appeals of the
State of Idaho, State of Idaho v. John
Allison Huckabay, No. 46085 (Feb. 7,
2020) ……………………………………………….. 17a
Relevant Portions of Appellant’s Opening
Brief, State of Idaho v. John Allison
Huckabay, Supreme Court of the State of
Idaho, Supreme Court Docket No. 460852018, Apr. 25, 2019, Section III(B)(3),
pp. cover, 20-32, 44 ……………………………… 29a

1a
IN THE SUPREME COURT OF THE
STATE OF IDAHO
Docket No. 48109
STATE OF IDAHO,

)
)
Plaintiff/Respondent,
)
)
v.
)
)
JOHN ALLISON HUCKABAY, )
)
Defendant/Appellant.
)

Boise, November,
2020 Term
Filed:
February 5, 2021
Melanie Gagnepain,
Clerk

SUBSTITUTE OPINION. THE COURT’S PRIOR
OPINION DATED DECEMBER 3, 2020 IS
HEREBY WITHDRAWN.
Appeal from the District Court of the First Judicial
District of the State of Idaho, Kootenai County.
Benjamin Simpson, District Judge.
The judgment of the district court is affirmed.
Lake City Law Group, Coeur d’Alene, attorneys for
Appellant. Stephen R. Matthews, pro hac vice argued.
Lawrence G. Wasden, Idaho Attorney General, Boise,
attorneys for Respondent. Kale Gans argued.

BEVAN, Chief Justice
This case comes to the Court on a petition for
review from the Idaho Court of Appeals. Defendant

2a
John Huckabay appeals his criminal conviction of
felony unlawful possession of a moose. The primary
question before this Court is one of statutory
interpretation: whether Idaho Code section 361401(c)(3) requires the unlawful killing, possessing, or
wasting of more than one animal to constitute a felony
offense. For the following reasons, we hold that the
statute can plainly apply to the unlawful killing,
possessing, or wasting of a single animal.
I. FACTUAL AND PROCEDURAL
BACKGROUND
On the morning of October 2, 2014, a married
couple heard a gunshot as they were packing up to
leave their cabin by Mica Bay on Lake Coeur d’Alene.
They soon left their cabin and encountered a large
truck with a cow moose hoisted in the back on a metal
frame. A man beside the truck introduced himself as
John Huckabay. At their inquiry, Huckabay told the
couple he had a tag for the moose. The driver, still in
the truck, introduced himself as “Bob” and was later
identified as Bob Cushman, a local butcher and the
owner of the vehicle. As the couple departed, the wife
looked up Idaho’s moose hunting season on her phone.
Concerned of a potential hunting violation, the couple
proceeded to the Idaho Department of Fish and
Game’s (“IDFG”) regional office where they reported
the shooting of an antlerless moose by a man named
Huckabay.
An IDFG enforcement officer contacted Huckabay
that same afternoon and they met at the IDFG
regional office in Coeur d’Alene. While Huckabay did
not give the IDFG officers information about

3a
Cushman or details about who specifically shot the
moose, Huckabay accompanied a third officer to the
area where the moose had been killed. There was
“considerable blood” and some moose hair on the lawn
of the “kill site,” and Huckabay pointed out where the
moose had been lying when he arrived on the scene to
collect the carcass.
Meanwhile, that same afternoon, two enforcement
officers obtained Cushman’s address and visited his
residence. Cushman has been a butcher in the area for
years, and has a butcher shop and walk-in cooler on
his property. He often permits customers and friends
to use the walk-in cooler and cutting room. With
Cushman’s permission, the officers checked inside the
cooler and found a skinned and quartered cow moose,
which lacked the requisite tag. The officers also noted
that the carcass was still “very warm,” showing it had
only recently been placed in Cushman’s cooler.
Cushman told the officers he did not know how the
carcass came to be in his cooler. The officers took
photographs and samples, with tests later confirming
that the meat and blood samples from the carcass, kill
site, and Cushman’s truck all came from the same cow
moose.
On March 1, 2017, a grand jury indicted Huckabay
for felony unlawful killing or possession of a moose in
violation of Idaho Code sections 36-1404(c)(3) and 361404(a)(2). Huckabay’s indictment charged him with
“UNLAWFUL KILLING OR POSSESSION OF A
MOOSE, Idaho Code § 36-1401(c)(3), § 36- 1404(a)(2),
a Felony,” committed on October 2, 2014.
Huckabay moved to dismiss his indictment,
arguing the evidence was insufficient to establish

4a
probable cause and the indictment lacked essential
elements of the crime. He also filed additional motions
to challenge a lack of jurisdiction. The district court
denied Huckabay’s motions, finding that the
indictment was sufficient to establish probable cause
that Huckabay possessed the moose even if there was
insufficient evidence to establish he killed the moose
in question. The State then amended the indictment
to read: “That the Defendant, JOHN ALLISON
HUCKABAY, on or about October 2, 2014, in the
County of Kootenai, State of Idaho, did unlawfully
possess a wild animal with a single damage
assessment of more than one thousand dollars
($1,000.00), to-wit: A cow moose in a closed season
and/or without a tag, ...” Huckabay sought to dismiss
the amended indictment, arguing that a single moose
did not constitute a felony violation under Idaho law,
but the district court again denied his motion.
Huckabay also filed a motion for permission to appeal
the statutory interpretation and vagueness issues.
This was also denied. The district court explained that
the law plainly permitted a felony where the damage
value assessment exceeded $1,000, including where a
single animal had been killed or possessed.
The case proceeded to a two-day jury trial and on
February 7, 2018, the jury found Huckabay guilty of
unlawful possession of a moose in violation of Idaho
Code section 36-1401(c)(3). Huckabay immediately
filed a motion to dismiss, which was denied. The
district court sentenced Huckabay with a $1,500 civil
penalty, imposed a $25,000 fine, revoked his Idaho
hunting and fishing license for three years, and set a
prison sentence of one year fixed, one year
indeterminate, which was suspended for two years.

5a
The district court then placed Huckabay on probation
and ordered him to serve 30 days of local incarceration
within three months of sentencing. Huckabay timely
appealed his conviction.
The case first came to the Idaho Court of Appeals,
which held “that I.C. § 36-1401(c)(3) requires the
unlawful killing, possessing, or wasting of more than
one animal to constitute a felony offense.” State v.
Huckabay, No. 46085, 2020 WL 597047, at *1 (Idaho
Ct. App. Feb. 7, 2020), review granted (June 23, 2020).
Its decision centered on interpreting the language of
the statute to mean “two or more” numbers or species
of wildlife. Id. at *4. Thus, the court concluded, the
district court erred in construing the statute and
should have granted Huckabay’s motion to dismiss.
Id. at *1. The Court of Appeals then reversed the
district court’s order and vacated the judgment of
conviction. Id. The State timely petitioned this Court
for review.
II. STANDARD OF REVIEW
Where a case comes before this Court on a petition
for review, we give “serious consideration to the views
of the Court of Appeals, but directly review[ ] the
decision of the lower court.” State v. Purdum, 147
Idaho 206, 207, 207 P.3d 182, 183 (2009) (quoting
State v. Oliver, 144 Idaho 722, 724, 170 P.3d 387, 389
(2007)).
The rules of statutory interpretation are well
established. Statutory interpretation is a question of
law freely reviewed by this Court. State v. Burke, 166
Idaho 621, ––––, 462 P.3d 599, 601 (2020). We
interpret a statute with its literal language to “giv[e]

6a
words their plain, usual, and ordinary meanings.” Id.
However, a statutory provision is not interpreted in
isolation; rather, it is interpreted “within the context
of the whole statute.” Id. This means we give effect “to
all the words and provisions of the statute so that none
will be void, superfluous, or redundant.” Id. When
applying these criteria, “we must also remember that
‘statutes which are in pari materia are to be taken
together and construed as one system, and the object
is to carry into effect the intention. It is to be inferred
that a code of statutes relating to one subject was
governed by one spirit and policy, and was intended to
be consistent and harmonious in its several parts and
provisions.” State v. Lantis, 165 Idaho 427, 429, 447
P.3d 875, 877 (2019) (quoting City of Idaho Falls v. HK Contractors, Inc., 163 Idaho 579, 583, 416 P.3d 951,
955 (2018) (internal citation omitted)). In addition,
this Court does not implement the rules of statutory
construction unless the language is ambiguous, which
occurs where “reasonable minds might differ or be
uncertain as to [the statute’s] meaning.” City of Idaho
Falls v. H-K Contractors, Inc., 163 Idaho at 582, 416
P.3d at 954.
III. ANALYSIS
The key issue on appeal is whether Idaho Code
section 36-1401(c)(3) requires the possessing of two or
more animals to constitute a felony violation. Both
parties argue that the statute is plain and
unambiguous. We agree with the State that the
statute is a broad and inclusive prohibition of the
unlawful killing, possessing, or wasting of any wildlife
where the reimbursable damage assessment exceeds
$1,000.

7a
Title 36, chapter 14 of the Idaho Code enumerates
the general penal provisions for violations of the
state’s fish and game laws. The statute under which
Huckabay was charged establishes the requirements
for a felony violation where there is unlawful killing,
possessing, or wasting of wildlife:
(c) Felonies. Any person who pleads guilty
to, is found guilty or is convicted of a
violation of the following offenses shall be
guilty of a felony:
...
3. Unlawfully killing, possessing or wasting
of any combination of numbers or species of
wildlife within a twelve (12) month period
which has a single or combined
reimbursable damage assessment of more
than one thousand dollars ($1,000), as
provided in section 36-1404, Idaho Code.
I.C. § 36-1401(c)(3) (2014). Idaho Code section 361404(a) values a moose at $1,500 and a trophy moose
at $10,000. I.C. § 36-1404(a). Thus, the possession of
any single moose—trophy or not—exceeds the base
reimbursable damage assessment required under
Idaho Code section 36-1401(c)(3). The question
remains, however, whether multiple animals are also
required. Importantly, we note that we are reviewing
the language of section 36-1401(c)(3) as it existed in
2014 when Huckabay was alleged to have committed
his crime. This statute was amended by the Idaho
Legislature in 2020 in response to the Court of
Appeals decision in this case. See Ch. 216, § 1, 2020
Idaho Sess. Laws 216, eff. March 19, 2020; Statement

8a
of Purpose, H.B. 528, Idaho Legis. (Idaho 2020). We
note this statutory change only for clarity in the
record. The 2020 amendment played no role in the
Court’s analysis of this opinion.
The interpretation of Idaho Code section 361401(c)(3) is an issue of first impression for this Court.
In turning to the statute, we read the language as a
whole, giving words their plain and ordinary
meanings. State v. Burke, 166 Idaho at ––––, 462 P.3d
at 601. One provision cannot be read to render other
sections absurd or superfluous. Id. As a result, we read
the “any combination of numbers or species of wildlife”
provision alongside the rest of the statute, which
specifies that the unlawfully possessed wildlife must
have “a single or combined reimbursable damage
assessment of more than one thousand dollars
($1,000), ...” I.C. § 36-1401(c)(3) (2014) (emphasis
added). A “single” damage assessment shows that a
felony violation can occur with a single animal, while
a “combined” reimbursable damage assessment would
only occur in scenarios involving either multiple
numbers or species of wildlife. For instance, if two
bighorn sheep were unlawfully killed, they would have
a combined reimbursable damage assessment with
each animal contributing its worth to the total
damages. If a single moose were unlawfully killed, it
would have a single reimbursable damage assessment
exceeding $1,000. Indeed, the reimbursable damage
assessments are calculated “per animal killed,
possessed or wasted,” under Idaho Code section 361404(a) (emphasis added). Thus, the statute as a
whole does not focus on the total number of animals
possessed or killed, nor the species affected. Instead,
section 36-1401(c)(3)’s language directs to, and relies

9a
on, the monetary value of the wildlife killed,
possessed, or wasted—an amount that could be
achieved by the possession of a single animal—in
determining felony status. See I.C. § 36-1401(c)(3)
(2014).
The need for this value requirement is also
highlighted in examples of various poaching scenarios.
One such hypothetical was presented by the State to
showcase the effects of Huckabay’s interpretation. In
that hypothetical, a hunter could kill a trophy moose
and common squirrel with very different effects. The
death of a trophy moose alone would result in a
misdemeanor, despite its singularly high value of
$10,000, while the deaths of both a trophy moose and
squirrel would result in a felony despite the squirrel’s
estimated value at $0. No change is made to the total
assessed damages of $10,000 in these scenarios.
Rather, only the number of animals killed on the
illegal hunt changes. Taking this a step further, a
similar analysis shows that a hunter could proceed to
hunt down a squirrel ($0), rabbit ($50), duck ($50), and
two wild turkeys ($500 total) with only a misdemeanor
poaching prosecution to follow, despite the higher
variety and numbers of species killed. However,
killing either a trophy moose ($10,000) or deer
($2,000), for instance, would raise the charges to a
felony under Idaho law. See I.C. §§ 36-1401(c)(3), 361404(a). Running through these scenarios emphasizes
the statute’s enduring focus on the “single or combined
reimbursable damage assessment of more than one
thousand dollars ($1,000)” rather than a requirement
for a hunter to simply shoot two or more “of any
combination” of species. I.C. § 36-1401(c)(3) (2014).

10a
Indeed, the provision “any combination of numbers
or species of wildlife” is broad language to incorporate
all species, in any amount, of valued wildlife as a
potential felony violation. See I.C. § 36-1401(c)(3)
(emphasis added). The words “combination,”
“numbers,” and “species” were used in the plural to
expand the statute to include more wildlife, not to
exclude a hunter who poaches a single high-value
game animal.
Thus, the most reasonable reading of the statute
permits a felony charge where any number of
wildlife—including a single animal—is unlawfully
killed, possessed, or wasted, and exceeds a single or
combined reimbursable damage value of $1,000. To
read the law as Huckabay would creates a situation in
which a hunter can be prosecuted only for felony
unlawful possession of a moose where he has also
possessed a second creature, regardless of its value or
lack thereof. Such an interpretation largely disregards
the legislature’s carefully enumerated wildlife values
and undermines the statute’s value-based scheme.
We, however, will not construe a statute to mean
something it does not say. Verska v. Saint Alphonsus
Reg’l Med. Ctr., 151 Idaho 889, 895, 265 P.3d 502, 508
(2011).
Both parties also cite a case similar to Huckabay’s
situation, State v. Hughes, 161 Idaho 826, 392 P.3d 4
(Ct. App. 2014), where a hunter moved to dismiss two
felony charges for unlawfully wasting and possessing
a single trophy mule buck deer. 161 Idaho at 828–29,
392 P.3d at 6–7. Like this case, the Hughes defendant
brought a jurisdictional claim based on the plain
language of the statute, arguing that the State failed

11a
to set forth facts essential to establish the felony
offenses charged. Id. at 829, 392 P.3d at 7. However,
the argument in Hughes focused on the plain language
of the reimbursable damage assessment lists—one for
enumerated wildlife and a second for flagrant
violations for killing, possessing, or wasting
enumerated trophy big game. Id. at 831–32, 392 P.3d
at 9–10. These two separate lists, the Idaho Court of
Appeals concluded, required the State to allege a
flagrant violation where “the reimbursable damage
assessment from the second list [is] to be used in
charging a violation under section 1401(c)(3).” Id.
Thus, the court rejected the State’s circular reasoning
that the charged felony was the required flagrant
violation to charge Hughes with a felony violation. Id.
at 832, 392 P.3d at 10. The court then affirmed the
district court’s dismissal of the felony charges for
jurisdictional deficiencies. Id. at 833, 392 P.3d at 10.
Huckabay specifically points to the Hughes court’s
summary of Idaho Code section 1401(c)(3) to support
his argument that the statute requires the taking of
multiple animals for a felony violation:
In order to state the essential facts of an I.C.
§ 36–1401(c)(3) violation, the prosecutor
must allege that the defendant unlawfully
killed,
possessed,
or
wasted
any
combination of numbers or species of
wildlife within a twelve-month period with
a single or combined reimbursable damage
assessment of more than $1,000.
Id. at 832, 392 P.3d at 10. This summary does nothing
to clarify the statute. Rather, it simply restates the
provision’s language in question. Moreover, Huckabay

12a
ignores the court’s additional statements that had the
charging documents appropriately alleged a flagrant
violation, then the State could have charged Hughes
under Idaho Code section 36–1401(c)(3) for the
unlawful possession of a single mule deer.
If the information had alleged that Hughes
killed, possessed, or wasted the mule deer
by one of the acts enumerated in I.C. § 36–
1402(e)(1–5), then the charged felony under
I.C. § 36–1401(c)(3) would be appropriate
since the mule deer also qualified as a
trophy game animal, thus falling within the
$2,000 reimbursable damage assessment.
Id. at 833, 392 P.3d at 11. While section 36–
1401(c)(3)’s language was not directly interpreted or
addressed in Hughes, this assessment showcases the
appellate court’s plain reading of the statute to permit
a felony where a single trophy mule deer had been
killed. In other words, the text was clear to the court—
as it is to us—that a single animal’s unlawful
possession constitutes a felony because it was valued
at over $1,000.
We conclude that Idaho Code section 36-1401(c)(3)
is plain and unambiguous. In reading the statute as a
whole, the law provides a felony violation occurs when
wildlife is unlawfully killed, possessed, or wasted and
its reimbursable damage assessment exceeds $1,000.
Thus, the indictment appropriately charged Huckabay
with a felony offense under Idaho Code section 361401(c)(3).
Apart from his claim that section 36-1401(c)(3)
requires more than one animal, Huckabay raises

13a
several jurisdictional and due process arguments.
First, Huckabay argues that the State needed to
allege, then prove, that he knew the moose he was
alleged to be possessing was killed in a closed season
and/or without a tag in order to satisfy the statute’s
requirement that he “unlawfully” possessed the
moose. Huckabay contends the amended indictment
was jurisdictionally deficient because it did not
include the essential element that “Huckabay knew
that the moose had been taken or killed during a
closed season, without a tag, or by an unauthorized
method.” However, section 36-1401(c)(3) does not
require any “knowing” or “intentional” act; rather, the
statute criminalizes “[u]nlawfully killing, possessing,
or wasting” of certain wildlife. The legislature
demonstrated its ability to include a knowledge
element earlier in the statute, criminalizing
“[k]nowingly and intentionally selling or offering”
certain wildlife. See I.C. § 36-1401(c)(1). Huckabay’s
attempt to read a knowledge requirement into section
36-1401(c)(3) is not supported by a plain reading of the
statute.
In a similar vein, Huckabay complains that the
State’s interpretation of section 36-1401(c)(3), which
we have now adopted, results in a strict liability
scheme that does not comport with due process.
However, the extent of Huckabay’s argument in his
opening brief is that “due process does not allow
Huckabay to be convicted of a felony involving the
possession of a moose based on strict liability or
ordinary negligence.” It is well established that this
Court “will not consider an issue not ‘supported by
argument and authority in the opening brief.’ ” Bach
v. Bagley, 148 Idaho 784, 790, 229 P.3d 1146, 1152

14a
(2010) (quoting Jorgensen v. Coppedge, 145 Idaho 524,
528, 181 P.3d 450, 454 (2008)). Since Huckabay’s strict
liability argument was merely mentioned in passing,
we decline to consider it on appeal.
Next, Huckabay asserts several due process
violations occurred at the grand jury proceedings and
then continued through the amendments of the
indictments. Specifically, Huckabay claims the
prosecutor improperly expressed his opinion about the
sufficiency of the evidence, that a Fish and Game
officer provided erroneous testimony, and that the
prosecutor erroneously instructed the grand jury. In
making these arguments, Huckabay overlooks our
precedent that “[a]lleged errors in a grand jury
proceeding will not be examined on appeal where the
defendant has been found guilty following a fair trial.”
State v. Grazian, 144 Idaho 510, 517, 164 P.3d 790,
797 (2007), abrogated on other grounds by Verska v.
Saint Alphonsus Reg’l Med. Ctr., 151 Idaho 889, 265
P.3d 502 (2011). See also State v. Mitchell, 104 Idaho
493, 500, 660 P.2d 1336, 1343 (1983) (“we hold that
even if the magistrate erred in relying on evidence at
the preliminary hearing that is ultimately determined
to be inadmissible, the error is not a ground for
vacating a conviction where the appellant received a
fair trial and was convicted, and there is sufficient
evidence to sustain the conviction.”); State v. Marsalis,
151 Idaho 872, 875, 264 P.3d 979, 982 (Ct. App. 2011).
Huckabay received a fair trial on the merits, thus, any
errors that occurred during the grand jury proceedings
are not reviewable on appeal.
Last, Huckabay claims that an interpretation of
section 36-1401(c)(3) that permits a felony charge

15a
where any number of wildlife—including a single
animal—is unlawfully killed, possessed, or wasted,
results in inconsistencies within Title 36. In support
of this claim, Huckabay cites to Idaho Code section 361402(c), which provides misdemeanor penalties for the
illegal taking, possession, and wasting big horn sheep,
mountain goat, and moose. Huckabay argues the only
way to read the statutes consistently is to conclude it
is a misdemeanor to possess a single animal under
section 36-1402(c), and a felony to possess a
combination of species in section 36-1401(c)(3).
However, this argument does not account for the
following language in section 36-1402(c) that
harmonizes the statutes:
Any person entering a plea of guilty for,
found guilty of or convicted of a
misdemeanor under the provisions of this
title or rules or proclamations promulgated
pursuant thereto shall, except in cases
where a higher penalty is prescribed,
be fined in a sum of not less than twenty-five
dollars ($25.00) nor more than one thousand
dollars ($1,000) and/or by commitment to
jail for not more than six (6) months. The
minimum fine, per animal, fish or bird, for
the illegal taking, illegal possession or the
illegal waste of the following animals, fish or
birds shall be as indicated below ...
minimum fine ... Moose ... $500.
I.C. § 36-1402(c) (emphasis added). There is clearly a
higher penalty prescribed for the unlawful possession
of a moose under Idaho Code section 36-1401(c)(3).
Thus, our interpretation of section 36-1401(c)(3) does

16a
not result in any conflict between the statutes.
Ultimately, we affirm the district court and hold that
the plain meaning of Idaho Code section 36-1401(c)(3),
as it existed at the time of the offense charged in this
case, permitted a felony violation where a hunter
unlawfully kills, possesses, or wastes any quantity of
wildlife with a reimbursable damage assessment of
more than $1,000.
IV. CONCLUSION
The district court judgment is affirmed.
Justices BURDICK,
MOELLER concur.

BRODY,

STEGNER

and

17a
IN THE COURT OF APPEALS OF THE
STATE OF IDAHO
Docket No. 46085
STATE OF IDAHO,

)
)
Plaintiff-Respondent, )
)
v.
)
)
)
JOHN ALLISON HUCKABAY,
)
)
Defendant-Appellant. )

Opinion Filed:
February 7, 2020
Karel A. Lehrman,
Clerk

Appeal from the District Court of the First Judicial
District, State of Idaho, Kootenai County. Hon.
Lansing L. Haynes, District Judge.
Order denying motion to dismiss, reversed; judgment
of conviction, vacated; and case remanded.
Phillabaum Ledlin Matthews & Sheldon PLLC;
Douglas R. Dick, Spokane, Washington, for appellant.
Stephen R. Matthews argued.
Hon. Lawrence G. Wasden, Attorney General; Kale D.
Gans, Deputy Attorney General, Boise, for
respondent. Kale D. Gans argued.

HUSKEY, Chief Judge
John Allison Huckabay appeals from his judgment

18a
of conviction after a jury found him guilty of felony
unlawful possession of a moose. Huckabay argues his
conviction was error because:
1. A felony violation of Idaho Code § 361401(c)(3) requires more than the
possession of a single moose;
2. The charging documents were fatally
deficient and failed to convey subject matter
jurisdiction to the district court; and
3. Prosecutorial misconduct invalidated the
grand jury indictment.
We hold that I.C. § 36-1401(c)(3) requires the
unlawful killing, possessing, or wasting of more than
one animal to constitute a felony offense. Although the
indictment conveyed subject matter jurisdiction, it
was legally insufficient to establish a felony pursuant
to I.C. § 36-1401 (c)(3). Because the district court
erroneously construed the statute, it erred in denying
Huckabay’s motion to dismiss. We reverse the district
court’s order, vacate the judgment of conviction, and
remand this case for further proceedings consistent
with this opinion.
I.
FACTUAL AND PROCEDURAL BACKGROUND
A grand jury indicted Huckabay for felony
unlawful killing or possession of a moose, in violation
of I.C. §§ 36-1401 (c)(3) and 36-1404(a)(2). The
indictment alleged:
That the Defendant, JOHN A. HUCKABAY,
on or about October 2nd, 2014, in the

19a
County of Kootenai, State of Idaho, did
unlawfully kill a cow moose by shooting said
moose in a closed season and/or did
unlawfully possess said moose by gutting,
quartering and/or transporting it without a
tag; all of which is contrary to the form, force
and effect of the statute in such case made
and provided and against the peace and
dignity of the People of the State of Idaho.
Huckabay filed a motion to dismiss the indictment
arguing that the grand jury did not have the
information needed to charge a crime; the jury
instructions failed to state the elements of the offense;
the grand jury was not properly informed of the law
with regards to possession; and there was no probable
cause to support the indictment. In a separate motion,
Huckabay also sought to dismiss the case for lack of
jurisdiction, arguing the possession of a single moose
does not violate the clear language of the statute.
The district court denied both of Huckabay’s
motions to dismiss in its memorandum decision and
order denying defendant’s motion to dismiss the
indictment. The district court explained that: the
indictment adequately charged Huckabay with a
felony offense, and thus, conferred jurisdiction; the
State adequately advised the grand jury of the
elements of the alleged charge and the definition of
possession; and the evidence presented to the grand
jury was sufficient to establish probable cause to
believe Huckabay unlawfully possessed a moose but
the evidence presented to the grand jury was
insufficient to establish probable cause to believe
Huckabay unlawfully killed a moose. The district

20a
court allowed the State to amend the indictment, and
the State subsequently filed an amended indictment
which removed the charge of killing a moose from the
indictment.1
Huckabay filed a motion for reconsideration of his
motion to dismiss and a motion to dismiss the
amended indictment, both of which were denied by the
district court. Huckabay then sought permission to
appeal the denial of his motion and the district court
also denied that motion. Huckabay’s motion for
permission to appeal was also denied by the Idaho
Supreme Court.
Before trial, the district court granted the State’s
second motion to amend the indictment, such that the
new indictment stated:
That the Defendant, JOHN ALLISON
HUCKABAY, on or about October 2, 2014,
in the County of Kootenai, State of Idaho,
did unlawfully possess a wild animal with a
single damage assessment of more than one
thousand dollars ($1,000.00), to-wit: A cow
moose in a closed season and/or without a
tag, all of which is contrary to the form, force
1

The amended indictment read:
That the Defendant, JOHN ALLISON HUCKABAY, on
or about October 2, 2014, in the County of Kootenai, State
of Idaho, did unlawfully possess a wild animal with a single
damage assessment of more than one thousand dollars
($1,000.00), to-wit: by gutting, quartering and/or
transporting a cow moose in a closed season and/or without
a tag, all of which is contrary to the form, force and effect
of the statute in such case made and provided and against
the peace and dignity of the People of the State of Idaho.

21a
and effect of the statute in such case made
and provided and against the peace and
dignity of the People of the State of Idaho.
The district court denied Huckabay’s motion to
dismiss the second amended indictment, and the case
proceeded to trial. The jury found Huckabay guilty of
felony unlawful possession of a moose. The district
court sentenced Huckabay to a unified sentence of two
years, with one year determinate. The district court
suspended the sentence for a two-year term of
probation and revoked Huckabay’s hunting and
fishing license for three years. Huckabay timely
appeals.
II.
STANDARD OF REVIEW
This Court exercises free review over the
application and construction of statutes. State v.
Reyes, 139 Idaho 502, 505, 80 P.3d 1103, 1106 (Ct.
App. 2003). Where the language of a statute is plain
and unambiguous, this Court must give effect to the
statute as written, without engaging in statutory
construction. State v. Burnight, 132 Idaho 654, 659,
978 P.2d 214, 219 (1999); State v. Escobar, 134 Idaho
387, 389, 3 P.3d 65, 67 (Ct. App. 2000). The language
of the statute is to be given its plain, obvious, and
rational meaning. Burnight, 132 Idaho at 659, 978
P.2d at 219. If the language is clear and unambiguous,
there is no occasion for the court to resort to legislative
history or rules of statutory interpretation. Escobar,
134 Idaho at 389, 3 P.3d at 67. When this Court must
engage in statutory construction because an
ambiguity exists, it has the duty to ascertain the

22a
legislative intent and give effect to that intent. State
v. Beard, 135 Idaho 641, 646, 22 P.3d 116, 121 (Ct.
App. 2001). To ascertain such intent, not only must the
literal words of the statute be examined, but also the
context of those words, the public policy behind the
statute, and its legislative history. Id. It is incumbent
upon a court to give an ambiguous statute an
interpretation which will not render it a nullity. Id.
Constructions of an ambiguous statute that would
lead to an absurd result are disfavored. State v. Doe,
140 Idaho 271, 275, 92 P.3d 521, 525 (2004).
III.
ANALYSIS
The statute at issue in this case, I.C. § 36-1401
(c)(3), reads in relevant part:
(c) Felonies. Any person who pleads guilty
to, is found guilty or is convicted of a
violation of the following offenses shall be
guilty of a felony:
3. Unlawfully killing, possessing or wasting
of any combination of numbers or species of
wildlife within a twelve (12) month period
which has a single or combined
reimbursable damage assessment of more
than one thousand dollars ($1,000), as
provided in section 36-1404, Idaho Code.
The issue here is the statutory construction of the
phrase “combination of numbers or species.”
Huckabay argues a combination of numbers or species
requires unlawfully killing, possessing, or wasting two
or more “numbers or species.” The State argues that

23a
unlawfully killing, possessing, or wasting one animal
satisfies the “combination of numbers or species”
because zero is a number and zero plus one is a
combination of numbers. The district court agreed
with the State, reasoning:
This Court finds that the language of I.C. §
36-1401(c)(3) unambiguously provides that
this statute can be violated by the killing or
possession of one animal if the reimbursable
damage assessment for that one animal is
greater than $1,000.00. The statute also
allows that killing or possessing a
combination of animals or species within a
12 month period with a combined damage
assessment exceeding $1,000.00 violates the
statute. In this case it is uncontested that
the animal involved was a moose, and that
the damage assessment for a moose is
greater than $1,000.00.
On appeal, Huckabay argues the district court
erred. Huckabay asserts he did not violate I.C. § 361401(c)(3) because the unlawful possession of a single
cow moose was not a felony. According to Huckabay,
the statutory language of I.C. § 36-1401(c)(3) requires
the unlawful killing, possessing, or wasting of more
than one moose. For support, Huckabay directs this
Court to the language of the statute, records of Idaho
Fish and Game, and legislative history. Huckabay also
claims that the district court’s interpretation of I.C. §
36-1401(c)(3)
causes
the
statute
to
be
unconstitutionally vague and to conflict with other
statutes.
As in the present case, this Court considered the

24a
statutory construction of I.C. § 36-1401(c)(3) in State
v. Hughes, 161 Idaho 826, 392 P.3d 4 (Ct. App. 2014).
There, Hughes was cited for killing a single buck mule
deer and was charged with two felony counts under
I.C. § 36-1401(c)(3): wasteful destruction of wildlife
and unlawful possession of wildlife. Hughes, 161 Idaho
at 828-29, 392 P.3d at 6-7. Hughes filed a motion to
dismiss or amend the information, arguing that the
information failed to allege all necessary facts to
establish the felony counts. Id. at 829, 392 P.3d at 7.
The district court granted the motion to dismiss with
leave for the State to file an amended indictment
alleging misdemeanors. Id. The State filed an
interlocutory appeal. Id.
The State’s argument on appeal was the district
court misinterpreted the plain language of the statute.
Id. at 829-30, 392 P.3d at 7-8. In response, Hughes
claimed the district court correctly dismissed the
appeal and an appellate court had no jurisdiction to
hear the case. Id. While considering the distinction
between the initial grant of subject matter jurisdiction
and the on-going exercise of that jurisdiction, this
Court noted:
Whether a court lacks jurisdiction is a
question of law, over which this Court
exercises free review. In a criminal case, the
filing of an information alleging that an
offense was committed within the state of
Idaho confers subject matter jurisdiction.
Because the information provides subject
matter jurisdiction to the district court, its
jurisdictional power depends on the
charging document being legally sufficient

25a
to survive challenge. Whether a charging
document conforms to the requirements of
law and is legally sufficient is also a
question of law subject to free review.
A challenge asserting the charging
information is jurisdictionally deficient is
never waived and may be raised at any time,
including for the first time on appeal. If an
alleged deficiency is raised by a defendant
before trial or entry of a guilty plea, the
charging document must be found to set
forth all facts essential to establish the
charged offense to survive the challenge.
Id. at 830, 392 P.3d at 8 (internal citations omitted).
After examining the language of I.C. § 361401(c)(3), this Court held the State failed to allege the
necessary elements of the offenses because it had not
established a flagrant violation as defined by the
statute. Hughes, 161 Idaho at 832, 392 P.3d at 10.
Because the State failed to set forth all the necessary
elements to establish the charged felony offense, the
district court’s dismissal of the two felony counts was
affirmed. Id. at 833, 392 P.3d at 11.
In this case, like in Hughes, the filing of the
indictment alleging an offense was committed within
the state of Idaho, and thus conferred subject matter
jurisdiction on the district court. However, the district
court’s exercise of its jurisdiction depends on the legal
sufficiency of the charging document.
The State asserts that under the plain language of
the statute, 0 is a number. The State reasons because
0 is a number and 1 is a number, then it is possible to

26a
combine these numbers (0 + 1) in such a way that the
number 1 can be a “combination of numbers.”
Possessing only one moose (and no other wildlife),
results in a felony offense according to the State. This
cannot be the plain meaning of the phrase
“combination of numbers” because, under the State’s
reasoning, 0 + 0 is also a combination of numbers.
Using the State’s logic, an individual who killed zero
moose would satisfy the first prong of I.C. § 361401(c)(3) because two zeroes satisfy the statutory
requirement that there is a “combination of numbers
of wildlife.” The State’s interpretation of numerical
values asks this Court to avoid the plain, obvious, and
rational meaning of “combination of numbers,” which
we decline to do. Under the plain language of the
statute, a combination means “two or more,” such that
the statutory language requires “two or more”
numbers or species of wildlife. In the instant case, the
plain language therefore requires that more than one
moose is unlawfully killed, possessed, or wasted in
order to be guilty of a felony under I.C. § 361401(c)(3).
The State further supports its argument by
pointing to the second half of the statute which
requires the combination of numbers or species of
wildlife have “a single or combined reimbursable
damage assessment of more than one thousand dollars
($1,000).” I.C. § 36-1401(c)(3). According to the State,
the statute could encompass one animal as well as
multiple animals because one animal would have a
single assessment and multiple animals would have a
combined assessment, thereby satisfying the language
of the statute. In contrast, Huckabay argues the
“combination of numbers or species” clause requires at

27a
least two animals or two species. The “single or
combined reimbursable damage assessment” clause
requires that at least one of the animals or species
have a reimbursable damage assessment that either
by itself or in combination with the other animal or
species exceeds $1,000.00. We agree with Huckabay.
When necessary, this Court looks to the
grammatical construction of the statute as the
legislature intended the statute to be construed
according to generally accepted principles of English
grammar. State v. McKie, 163 Idaho 675, 679-80, 417
P.3d 1001, 1005-06 (Ct. App. 2018). Under the rule of
the last antecedent clause, a referential or qualifying
clause refers solely to the last antecedent, absent a
showing of contrary intent. BHC Intermountain Hosp.,
Inc. v. Ada Cnty., 150 Idaho 93, 96, 244 P.3d 237, 240
(2010); See 2A Sutherland Statutory Construction §
47:33 Referential and qualifying words: Last
antecedent rule (7th ed. 2019).2 Here, the damage
assessment clause in I.C. § 36-1401(c)(3) is used to
describe the “combination of numbers or species of
wildlife”—the combination may have a single damage
assessment or combined damage assessment. This is
because under I.C. § 36-1404, different wildlife have
different reimbursable damage assessments, while
2

Sutherland Statutory Construction explains:
Referential and qualifying words and phrases, where no
contrary intention appears, refer solely to the last
antecedent. The last antecedent is “the last word, phrase,
or clause that can be made an antecedent without
impairing the meaning of the sentence.” Thus a proviso
usually applies to the provision or clause immediately
preceding it.

28a
some wildlife have no assessment value at all. So one
could kill two species—one with a reimbursable
damage assessment greater than $1,000.00 or more
and one species with no reimbursable damage
assessment—and commit a felony as defined by I.C §
36-1401(c)(3).
Here, the indictment alleged that Huckabay
possessed a single cow moose. The indictment did not
charge the necessary facts to establish a felony
offense, and thus, the indictment was legally
insufficient and the district court erred when it denied
Huckabay’s motion to dismiss. Because we resolve the
case on this ground, we need not address the other
arguments raised in this case.
IV.
CONCLUSION
The denial of Huckabay’s motion to dismiss is
reversed, Huckabay’s judgment of conviction is
vacated, and the case is remanded for further
proceedings consistent with this opinion.
Judge GRATTON and Judge BRAILSFORD concur.

29a
IN THE SUPREME COURT OF THE
STATE OF IDAHO
Supreme Court Docket No. 46085-2018
STATE OF IDAHO,
Plaintiff-Respondent,
vs.
JOHN ALLISON HUCKABAY,
Defendant-Appellant.
APPELLANT’S OPENING BRIEF
Appeal from the District Court of the
First Judicial District of the State of Idaho
in and for Kootenai County
Case No. CR-2017-3282
The Honorable Benjamin Simpson,
District Judge, presiding.
For Appellant John Allison Huckabay
Erik P. Smith, ISB No. 5008
Email: esmith@lclattorneys.com
Lake City Law Group
435 W. Hanley Avenue, Suite 101
Coeur d’Alene, ID 82815
Telephone: (208) 664-8115
FAX: (208) 664-6338
Douglas R. Dick, ISB No. 9398
Email: doug@spokelaw.com

30a
Phillabaum Ledlin Matthews & Sheldon, PLLC
1235 N. Post Street, Suite 100
Spokane, WA 99201
Telephone: (509) 838-6055
FAX: (509) 625-1909
For Respondent State of Idaho
Hon. Lawrence G. Wasden
Attorney General
Email: janet.carter@ag.idaho.gov
Criminal Division
P.O. Box 83720
Boise, ID 83720-0010
***
3. The Indictments Failed to Satisfy Due
Process By Omitting Essential Elements
Not only did the indictments fail to confer
jurisdiction on the district court, they also failed to
satisfy due process. In State v. Olin, the court
observed that this Court “has modified the
jurisdictional analysis by differentiating between due
process issues and those involving jurisdiction. Now, a
charging document’s failure to state facts with
specificity to support the charge or failure to allege an
essential element of the crime is not fatal to
jurisdiction on challenges made after trial or for the
first time on appeal if the charging document cites to
the applicable code section.” 153 Idaho at 893-94, 292
P.3d at 284-85. Huckabay objected to the indictments
prior to trial. R. 114-136, 156-163, 165-177, 271-281,
311-316, 376-384, 496-519. This Court should review

31a
the district court’s denial of Huckabay’s objection to
the legal sufficiency of the indictments. State v. Jones,
140 Idaho at 758, 101 P.3d at 702. The absence of
essential elements in the indictments, particularly he
Second Amended Indictment on which Huckabay was
tried, is fatal to the prosecution.
An indictment must do more than simply state the
offense charged; the document must also clearly
indicate the facts giving rise to the offense or the
means by which the defendant committed the alleged
crime. State v. Severson, 147 Idaho at 709, 215 P.3d
at 429. “In order to state the essential facts of an I.C.
§ 36–1401(c)(3) violation, the prosecutor must allege
that the defendant unlawfully killed, possessed, or
wasted any combination of numbers or species of
wildlife within a twelve-month period with a single or
combined reimbursable damage assessment of more
than $1,000.” Hughes, 161 Idaho at 832, 392 P.3d 10.
None of the indictments charging Huckabay satisfied
the standard set by Hughes because they did not
include the language “any combination of numbers or
species of wildlife within a twelve-month period” or
facts to set forth such an allegation. The State
vigorously contended that the language of I.C. § 36–
1401(c)(3) clearly makes the unlawful possession of a
single moose a felony. R. 144, 148-150, 318, 320. If the
State truly believed its assertion, it would have had no
reason to avoid using the statutory language in the
Indictments.
On the eve of trial, over Huckabay’s objection, the
deputy prosecutor signed and filed a Second Amended
Indictment that alleged that Huckabay “did
unlawfully possess a wild animal with a single

32a
damage assessment of more than one thousand
dollars ($1,000), to-wit: A cow moose in a closed season
and/or without a tag,” in violation of I.C. § 36–
1401(c)(3) and I.C. § 36–1404(a)(2). R. 577-578
(emphasis added). This stripped down2 Second
Amended Indictment omitted an additional essential
element of the alleged felony offense. The legislature
provided a specific definition for “unlawful possession”
in the context of the possession and transportation of
wildlife. I.C. § 36–502(b) reads: “Unlawful Possession.
No person shall have in his possession any wildlife or
parts thereof protected by the provisions of this title
and the taking or killing of which is unlawful.”3 Title
36 also includes a definition of “take,” which “means
hunt, pursue, catch, capture, shoot, fish, seine, trap,
kill, or possess or any attempt to so do.” I.C. § 36202(i).
“When the legislature has prescribed a specific
definition of a term used in a particular statute or
group of statutes, it is that definition which governs in
the enforcement of the subject statutes.” State v.
2Facts

describing the nature of the conduct disappeared both
times the indictment was amended. The allegations in the
original indictment that Huckabay killed, shot, gutted, quartered
and transported the moose all disappeared in the amendments.
R. 21-22, 243-244, 577-578. The Second Amended Indictment
was so different from the original Indictment Huckabay was
deprived of his right under Article 1, Section 8, of the
Constitution to have a grand jury or judge determine probable
cause before having to undertake a defense at trial.
3A violation of I.C. § 36–502(b), which can apply to a single
animal or parts of a single animal that was taken or killed
unlawfully, is a misdemeanor. See State v. Simpson, 137 Idaho
813, 814, 817, 54 P.3d 456, 457, 460 (Ct. App. 2002).

33a
Paciorek, 137 Idaho 629, 634, 51 P.3d 443, 448 (Ct.
App. 2002). I.C. § 36-1401(c)(3) expressly requires
“[u]nlawfully killing, possessing or wasting . . . of
wildlife” to qualify as a felony violation. Mere
possession of specified wildlife with a value of more
than $1,000 does not violate the statute; the
possession must be “unlawful.” In order to satisfy the
element of unlawful possession, an indictment must
allege that wildlife was both possessed and unlawfully
taken or killed. The Second Amended Indictment
failed to allege conduct by Huckabay that amounts to
“unlawful possession.” Specifically, that charging
document failed to allege a taking, as defined by I.C. §
36-202(i), to support the allegation of “did unlawfully
possess” as defined by I.C. § 36-502(b).
Evidence that the Second Amended Indictment is
deficient flows from the modification of the original
Indictment, which included an allegation that
Huckabay unlawfully killed a moose by shooting the
moose in a closed season. If the State had introduced
evidence that Huckabay shot the moose, or that a
coconspirator with Huckabay had shot the moose, in a
closed season, the taking requirement that would
support “unlawful possession” would have been
satisfied. The Prosecutor’s Office included the
allegation that Huckabay shot and killed the moose in
a closed season because the element that the moose
was taken is essential to the felony charge. The State
was unable to prove that such an event occurred,
however, and the court appropriately found that no
probable cause existed for the allegation that
Huckabay shot the moose. R. 232-233. The State did
not rely on an aiding and abetting theory. R. 233.

34a
The Prosecutor’s Office deleted the allegation of
shooting and killing the moose from both amended
indictments. R. 243-244, 577-578. The Amended
Indictment alleged that Huckabay did “unlawfully
possess a wild animal . . . by gutting, quartering
and/or transporting a cow moose in a closed season
and/or without a tag.” R. 243-244. When explaining
the denial of the defense pretrial motion to dismiss the
Amended Indictment, the district court noted that the
definition of “take” in I.C. § 36-202(i) includes
“possess”. R. 397. The trial court ruled that “a person
can unlawfully ‘take’ (possess) wildlife when that
wildlife is possessed without a tag or out of season. . .
. It is unlawful to ‘take’ (possess) wildlife out of season.
I.C. § 36-1402(e), (f). It is unlawful to ‘take’ (possess)
wildlife without the appropriate tag. I.C. § 36-409(c),
(d). Thus, by allegedly gutting and quartering and
possessing the moose without a tag and out of season,
Defendant allegedly unlawfully possessed the moose.”
Id.
Assuming arguendo the district court’s analysis is
correct, the State undercut the court’s reasoning to
uphold the charging document by filing a Second
Amended Indictment that deleted the phrase “by
gutting, quartering and/or transporting.” The Second
Amended Indictment only makes the most basic
allegation that Huckabay “did unlawfully possess a
wild animal . . . , to-wit: A cow moose in a closed season
and/or without a tag.” R. 577-578. This third version
of the Indictment did not include relevant facts
supporting unlawful possession after a taking. State
v. Severson, 147 Idaho at 709, 215 P.3d at 429 (an
indictment must state the offense charged and
“clearly indicate the facts giving rise to the offense or

35a
the means by which the defendant committed the
alleged crime.”); Idaho Criminal Rule 7(b) (indictment
must include “a plain, concise, and definite written
statement of the essential facts constituting the
offense charged”). The State eliminated the facts
setting forth the means by which Huckabay allegedly
possessed the moose because the it could not prove
those facts.4
No witness testified to observing
Huckabay actually possessing a moose.
I.C. § 19-1409(2) requires that an indictment contain
“[a] statement of acts constituting the offense in
ordinary and concise language . . . .” The State did not
allege any acts by Huckabay in the Second Amended
Indictment. Furthermore, the State did not allege any
criminal knowledge or mens rea in the Second
Amended Indictment that necessarily would allow the
conclusion that Huckabay was aware that he had
possession of a wild animal in an unlawful manner.
After deleting the allegation of “gutting, quartering
and/or transporting” that appeared in the original
Indictment and the Amended Indictment, the State
was left in the Second Amended Indictment with
simply alleging mere possession. Allegations of
“closed season” and “without a tag” did not cure the

4 Witnesses

testified before the grand jury and at trial that they
saw an intact moose hanging on a truck belonging to someone
other than Huckabay; that they saw someone other than
Huckabay in the driver’s seat of the truck; that the driver said he
had a tag; that Huckabay was outside the truck; and that a
butchered moose was located in a refrigerated unit at a property
owned and occupied by someone other than Huckabay. Conf.
Exhs., p. 61-63, 70-71, GJ Tr., 11-13, 18-20, 48, 50-53; Tr., 19394, 196, 199, 204-06, 246, 248-52, 264-65.

36a
failure to allege any acts because neither allegation
communicates any action by Huckabay.
The Second Amended Indictment omitted the taking
element of unlawful possession. R. 577-578. The State
stripped down the Second Amended Indictment to the
bare allegation that Huckabay unlawfully possessed a
wild animal by possessing a moose. Reliance only on
the term “possess” in the definition of “take” in I.C. §
36-202(i) to establish that Huckabay “did unlawfully
possess” a moose is impermissible circular reasoning
that eliminated an essential element of the offense by
equating unlawful possession to an unlawful taking
by mere possession. This fallacy would be an example
of petitio principii or “begging the question,” where
what is to be proved already has been assumed. See
Hughes, 161 Idaho at 832-33, 392 P.3d at 10-11 & n.3.
In the Hughes decision, the Idaho Court of Appeals
affirmed the dismissal of two felony counts in violation
of I.C. § 36-1401(c)(3) as jurisdictionally deficient after
rejecting an analogous argument by the State that
relied on circular reasoning. Id. Similar to Huckabay,
defendant Hughes “contended that the State failed to
set forth facts essential to establish the offenses
charged.” Id. at 829, 392 P.3d at 7. The appellate
court noted that “[b]ecause the information provides
subject matter jurisdiction to the district court, its
jurisdictional power depends on the charging
document being legally sufficient to survive challenge.
. . . If an alleged deficiency is raised by a defendant
before trial or entry of a guilty plea, the charging
document must be found to set forth all facts essential
to establish the charged offense to survive the
challenge.” Id. at 830, 392 P.3d at 8. The challenge

37a
in Hughes focused on the interaction between I.C. §
36-1404(a), which increases the reimbursable damage
assessment for a mule deer from $400 to $2,000 where
the defendant is convicted of a flagrant violation
involving a trophy mule deer, and I.C. § 36-1402(e),
which enumerates six flagrant violations. The sixth
flagrant violation that I.C. § 36-1402(e) lists is “[a]ny
felony violation provided in section 36-1401, Idaho
Code.” The only flagrant violation that the State
alleged was the commission of a felony. Id. According
to the State, “the status of the animal as a trophy mule
deer” made the illegally killing or wasting of the
trophy mule deer a per se felony. Id. at 831, 392 P.3d
at 9. Finding the State’s argument flawed, the
appellate court explained that
the information makes a circular allegation. In
order to allege the essential facts of a felony, the
prosecutor must plead a flagrant violation to invoke
the trophy mule deer higher reimbursable damage
assessment. However, the prosecutor could only
allege that the flagrant violation was the felony
itself. . . . If the information had alleged that Hughes
killed, possessed, or wasted the mule deer by one of
the acts enumerated in I.C. § 36-1402(e)(1-5), then
the charged felony . . . would be appropriate since the
mule deer also qualified as a trophy animal . . . .
161 Idaho at 832-33, 392 P.3d at 10-11. Like the Court
of Appeals in Hughes, this Court should conclude that
the Second Amended Indictment was jurisdictionally
deficient because the State relied on circular
reasoning in a failed effort to establish the felony that
Huckabay unlawfully possessed a moose simply by

38a
alleging that he possessed the moose during a closed
season and without a tag.
Under the concept of constructive possession, which
the State included in its instructions to the grand jury
and the trial jury, the sparse allegations in the Second
Amended Indictment could encompass a scenario
where Huckabay is unaware that his associate is
unlawfully in possession of a moose, that the season is
closed, and/or that his associate lacks a valid tag. See
Conf. Exhs., p. 59, GJ Tr., 6; Tr., p. 442-43; R. 661.
The State failed to allege in the Second Amended
Indictment that Huckabay knew that the season was
closed, that his associate lacked a valid tag, or that his
associate otherwise had taken the animal by
unauthorized means. The State has the burden of
proving each element of the charged offense beyond a
reasonable doubt. See State v. Eliasen, 158 Idaho 542,
546, 348 P.3d 157, 161 (2015). The State did not
introduce evidence showing that Huckabay ever had
actual possession of a moose.5

5Instead,

the State’s evidence proved that Robert “Bob”
Cushman (“Cushman”) had a dead moose on his truck and later
in his cold storage locker at his butcher facility. Tr., p. 203-205,
p. 249-252. Cushman, rather than Huckabay, would have been
the person who needed to affix a valid tag to the moose because
the evidence showed that Cushman had the moose in his control
and possession. See I.C. § 36-409(c), (d). Id. The State introduced
evidence that Huckabay told civilians who saw the moose on
Cushman’s truck that he had a tag, but did not introduce
evidence establishing that Huckabay knew that Cushman lacked
a tag and that the season was closed on that day. Tr., p. 213.
One of the civilians testified before the grand jury that “Bob” said
that he had a tag. Conf. Exhs., p. 63, GJ Tr., p. 20.

39a
The sparse factual allegations in the Second
Amended Indictment also left the charging document
without an allegation of scienter that most felony
convictions require. In a case involving convictions for
possession of unlawfully taken elk under I.C. § 36502(b), the Court of Appeals held that “[t]he statute is
violated by the act of possession. It does not require
that the perpetrator have knowledge that the wildlife
was taken unlawfully.” State v. Simpson, 137 Idaho
813, 817, 54 P.3d 456, 460 (Ct. App. 2002). The court
explicitly noted that I.C. § 36-502(b) is a
“misdemeanor statute.” Id. The opinion in Simpson
cited in support an earlier decision by the Court of
Appeals, State v. Wimer, 118 Idaho 732, 800 P.2d 128
(Ct. App. 1990), which also “held that the offense of
taking an elk without a valid license, in violation of
I.C. § 36-502, did not require proof of criminal intent.”
Simpson, 137 Idaho at 816, 54 P.3d at 459. The court
in Wimer likewise noted the offenses were
misdemeanors. 118 Idaho at 733, 737, 800 P.2d at
129, 133.
The State could have charged Huckabay with the
misdemeanor of possession of a wild animal in
violation of I.C. § 36-502(b), which essentially is a
strict liability offense or an offense requiring only the
ordinary negligence of failing to confirm that the
hunter took the animal in season, with a valid tag, and
by using an authorized method. Although the State
would have had to allege and prove that someone had
taken or killed the moose out of season or without a
valid tag, the State only would have had to allege and
prove that Huckabay had actual or constructive
possession of the moose or some of its parts. Given the
interpretation and application of I.C. § 36-502(b) by

40a
the Court of Appeals in the Wimer and Simpson
decisions, the State would not have had to allege or
prove any knowledge or mens rea on the part of
Huckabay that someone had taken or killed the moose
unlawfully in a closed season, without a valid tag, or
by an unauthorized hunting method.
In Huckabay’s case, however, the State chose to
charge a felony. Criminal offenses that do not require
mens rea are generally disfavored. Liparota v. United
States, 471 U.S. 419, 425-26 (1985). Embracing that
principle of American justice, the legislature provided
that for “every crime or public offense there must exist
a union, or joint operation, of act and intent, or
criminal negligence.” I.C. § 18-114. In the context of
reviewing a conviction for misdemeanor vehicular
manslaughter involving ordinary negligence, the
Court of Appeals explained that vehicular
manslaughter is a public welfare offense and Idaho
courts have determined that the statute can be
reconciled with I.C. § 18-114. Haxforth v. State, 117
Idaho 189, 189-91, 786 P.2d 580, 580-82 (Ct. App.
1990). The court stated that I.C. “§ 18-114 prescribes
a general requirement for the mental element of a
crime; but the Legislature may vary this requirement
in defining a particular offense, subject to
constitutional limits described below.” 117 Idaho at
190, 786 P.2d at 581. Quoting State v. Curtis, 106
Idaho 483, 487-88, 680 P.2d 1383, 1387-88 (Ct. App.
1984), the court in Haxforth observed this Court had
recognized I.C. § 18-4006, the vehicular manslaughter
statute, was
“amended, in 1965, to create a separate category of
involuntary manslaughter involving the use of a

41a
motor vehicle. As to that type of manslaughter – and
that type only – the Legislature established criminal
responsibility for conduct ‘without gross negligence’
and prescribed a level of punishment less severe
than that authorized for felonies.”
Haxforth v. State, 117 Idaho at 190, 786 P.2d at 581.
Addressing the constitutional limits of relying on
ordinary negligence to support a conviction, the Court
of Appeals noted that courts in other jurisdictions
“have distinguished between traditional common
law offenses and ‘public welfare offenses’ . . . . See,
e.g., Morissette v. United States, 342 U.S. 246 (1952).
Courts have concluded that under certain
circumstances, public welfare offenses, such as
traffic violations, need not contain a general
criminal intent or criminal negligence requirement
in order to comply with the due process clause.
Instead, the crimes can be premised upon ordinary
negligence, or in some instances, even strict liability.
See, e.g., Holdridge v. United States, 282 F.2d 302
(8th 1960). The proposition which appears to emerge
from these cases is that when a crime (a) does not
find its roots in the common law, (b) carries only a
light penalty, (c) does not gravely besmirch the
offender’s character, and (d) embodies a rule of
conduct with which compliance can be reasonably
expected, then the crime can be treated as a public
welfare offense requiring only ordinary negligence.
Id. at 310.”
117 Idaho at 190-91, 786 P.2d at 581-82. Applying this
test for satisfying the due process standard, the Court
of Appeals found that regulating the operation of
motor vehicles does not have

42a
“roots in the common law. Traffic laws are enacted
for the benefit of the traveling public and it is
reasonable to expect compliance with these laws.
Moreover, vehicular manslaughter under subsection
(c), being a misdemeanor, carries a relatively minor
penalty. . . . A conviction under this statute,
although deeply regrettable, does not gravely
besmirch the defendant’s character. Therefore, . . .
the misdemeanor form of vehicular manslaughter . .
. resembles more closely a public welfare offense,
and as such need not contain a criminal negligence
requirement.”
Id. The due process analysis of the Court of Appeals in
the Haxforth opinion is consistent with the holdings in
the Wimer and Simpson decisions. Like the
misdemeanor vehicular manslaughter statute,
unlawful possession of wildlife in violation of I.C. § 36502(b) does not have roots in common law. The offense
is a misdemeanor that has a “relatively minor penalty”
that “does not gravely besmirch a defendant’s
character.” Huckabay was convicted of a felony,
however, which carries a potential heavy penalty
including incarceration in state prison and significant
collateral consequences involving the loss of civil
rights. I.C. § 18-112; I.C. § 18-310. Status as a
convicted felon definitely gravely besmirches a
person’s character. See Morissette v. United States,
342 U.S. at 260 (“[T]he infamy is that of a felony,
which . . . is ‘. . . as bad a word as you can give to a
man or thing.’”) (quoting 2 Pollock & Maitland, History
of English Law, 465) (footnote omitted).
In United States v. Wulff, 758 F.2d 1121 (6th Cir.
1985), the Sixth Circuit affirmed the dismissal of an

43a
indictment that had charged the defendant with a
felony violation of the Migratory Bird Treaty Act
(“MBTA”) because the statute did not require proof of
scienter for a conviction. Id. at 1122. The appellate
court held that the absence of a scienter requirement
violated the due process clause of the Fifth
Amendment “because the felony penalty provision is
severe and would result in irreparable damage to one’s
reputation” and “the crime is not one known to the
common law” so the courts could not read a scienter
requirement into a silent statute. Id. at 1122, 1124.6
Similarly, due process does not allow Huckabay to be
convicted of a felony involving the possession of a
moose based on strict liability or ordinary negligence.
Mere possession does not connote criminal knowledge
or scienter.7 Instead, the State must allege and prove
that Huckabay knew, or was grossly (criminally)
negligent not to know, that the moose he actually or
constructively possessed had been taken or killed

6The

Sixth Circuit characterized as “severe” the maximum
penalty of two years in prison and a $2,000 fine. 758 F.2d at
1122-23. Huckabay faced a much more severe maximum penalty
of five years in prison and a $50,000 fine. I.C. § 18-112.
7Witnesses

testified Huckabay and the driver of the truck,
“Bob”, stated that they had a tag. Id., p. 61-63, GJ Tr., p. 12-13,
14-15, 19-20, 104. It is possible the driver of the truck told
Huckabay that he had a valid tag and Huckabay believed him. A
Fish and Game officer testified before the grand jury that on the
day of the alleged offense it was open season for bull moose. Conf.
Exhs., p. 72, GJ Tr., p. 56. Another Fish and Game officer
testified that the season for cow moose opened within two weeks
of the incident. Id., p. 76, GJ Tr., p. 72.

44a
during a closed season, without a valid tag, or by an
unauthorized method.8
None of the three versions of the Indictment
conferred jurisdiction on the district court because
each version omitted at least one essential element
needed to state a felony under the statute, specifically
that a combination of numbers or species of wildlife
was involved in the offense within a twelve-month
period. Moreover, the Second Amended Indictment
was legally insufficient because the charging
document was devoid of both language addressing
three essential statutory elements and supporting
facts giving rise to the alleged offense or describing the
means by which Huckabay allegedly committed the
offense. Specifically, this third version failed to
include the essential elements (1) that the offense
involved a combination of numbers or species of
wildlife within a twelve-month period, (2) that an
unlawful taking or killing of wildlife had occurred as a
predicate to unlawful possession, and (3) that
Huckabay knew that the moose had been taken or
killed during a closed season, without a tag, or by an
unauthorized method. By alleging that Huckabay
unlawfully possessed a wild animal simply by
possessing the animal, the State engaged in circular
reasoning and failed to set forth any acts or conduct
by Huckabay that would constitute an offense.
8In

Liparota v. United States, the U.S. Supreme Court
interpreted “knowingly” in a criminal statute involving food
stamps to require mens rea to the extent that the defendant
knew that he had acquired or possessed food stamps through
conduct that the statute or the administrative regulations did
not authorize. 471 U.S. at 420-21, 424.

45a
Furthermore, the State failed to allege that Huckabay
had the scienter necessary to support a felony
conviction. The district court erred by allowing the
State to proceed to trial over defense objection on a
legally insufficient Second Amended Indictment.
***
Respectfully submitted this 25th day of April, 2019.
/s/ DOUGLAS R. DICK
Douglas R. Dick, ISB No. 9398
PLMS, Attorneys for Appellant John Huckabay

